<html>
<title> - [H.A.S.C. No. 111-168]BEYOND THE DEFENSE LANGUAGE TRANSFORMATION ROADMAP: BEARING THE BURDEN FOR TODAY'S EDUCATIONAL SHORTCOMINGS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                                     

                         [H.A.S.C. No. 111-168]
 
          BEYOND THE DEFENSE LANGUAGE TRANSFORMATION ROADMAP:
        BEARING THE BURDEN FOR TODAY'S EDUCATIONAL SHORTCOMINGS

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JUNE 29, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
61-632                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c5a2b5aa85a6b0b6b1ada0a9b5eba6aaa8eb">[email&#160;protected]</a>  
  


              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          ROB WITTMAN, Virginia
SUSAN A. DAVIS, California           WALTER B. JONES, North Carolina
JIM COOPER, Tennessee                MIKE ROGERS, Alabama
JOE SESTAK, Pennsylvania             TRENT FRANKS, Arizona
GLENN NYE, Virginia                  CATHY McMORRIS RODGERS, Washington
CHELLIE PINGREE, Maine               DOUG LAMBORN, Colorado
NIKI TSONGAS, Massachusetts          TODD RUSSELL PLATTS, Pennsylvania
                 John Kruse, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                      Trey Howard, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Tuesday, June 29, 2010, Beyond the Defense Language 
  Transformation Roadmap: Bearing the Burden for Today's 
  Educational Shortcomings.......................................     1

Appendix:

Tuesday, June 29, 2010...........................................    21
                              ----------                              

                         TUESDAY, JUNE 29, 2010
BEYOND THE DEFENSE LANGUAGE TRANSFORMATION ROADMAP: BEARING THE BURDEN 
                  FOR TODAY'S EDUCATIONAL SHORTCOMINGS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Subcommittee on Oversight and Investigations...................     1
Wittman, Hon. Rob, a Representative from Virginia, Ranking 
  Member, Subcommittee on Oversight and Investigations...........     2

                               WITNESSES

Golden, Brig. Gen. Walter, USA, Director, J-1 Manpower and 
  Personnel, Office of the Chairman, Joint Chiefs of Staff.......     5
Pickup, Sharon L., Director, Defense Capabilities and Management, 
  U.S. Government Accountability Office..........................     6
Weaver, Nancy E., Director, Defense Language Office, Office of 
  the Under Secretary of Defense (Personnel and Readiness).......     4

                                APPENDIX

Prepared Statements:

    Pickup, Sharon L.............................................    41
    Weaver, Nancy E..............................................    27
    Wittman, Hon. Rob............................................    25

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Dr. Snyder...................................................    59

Questions Submitted by Members Post Hearing:

    Dr. Snyder...................................................    63

BEYOND THE DEFENSE LANGUAGE TRANSFORMATION ROADMAP: BEARING THE BURDEN 
                  FOR TODAY'S EDUCATIONAL SHORTCOMINGS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                            Washington, DC, Tuesday, June 29, 2010.
    The subcommittee met, pursuant to call, at 1:34 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
       ARKANSAS, CHAIRMAN, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Dr. Snyder. Good afternoon, and welcome to the Subcommittee 
on Oversight and Investigations' hearing on the Department of 
Defense's [DOD] progress in transforming the United States 
military's foreign language skills, cultural awareness, and 
regional expertise capabilities.
    In November of 2008 this subcommittee came out with this 
report, ``Building Language Skills and Cultural Competencies in 
the Military: DOD's Challenge in Today's Educational 
Environment.'' We thought it was a pretty good report, but it 
was not the beginning of this discussion, and it is certainly 
not the end; it is just an ongoing issue that we have in this 
country.
    And November 10th, 2009--the Marine Corps birthday, by the 
way--General McChrystal, in his ``for whom it may concern'' 
memo for counterinsurgency training guidance for ISAF 
[International Security Assistance Force], said the following: 
``Language Training: Everyone should learn basic language 
skills. Every deployed person should be able to greet locals 
and say `thank you.' Each platoon, or like-sized organization, 
that will have regular contact with the population should have 
at least one leader that speaks Dari, at least a zero-plus 
level, with a goal of a level one in oral communication. These 
personnel will not replace interpreters, but will enhance the 
capabilities of the unit. This language skill is as important 
as your other basic combat skills.''
    A little over a year and a half ago this committee--this 
subcommittee--held its last hearing on language and culture. At 
that time the Department was nearing completion of the task it 
set out for itself in the Defense Language Transformation 
Roadmap, but neither having--but having neither an accurate 
picture of what language skills reside in the force nor what 
capabilities were required by the commanders in the field there 
was no true strategic plan to guide the services in their role 
as force providers.
    I look forward to hearing about the progress in these areas 
and the status of the Department's strategic plan from our 
witnesses today. And we also recognize, as it was discussed 
during our previous series of hearings, that this is a national 
problem, that once again the military inherits the challenges 
that we have in the country that we do not emphasize language 
skills enough. Many, many of us--far too many of us--speak only 
English.
    And also, at this particular time in our economic history 
we are grappling with the issue in this country right now about 
potential cutbacks in teachers. And there is anecdotal evidence 
that some of the first teachers to go when a district is 
looking to save money are arts, music, and foreign language, 
which doesn't help our national security perspective either.
    We have witnesses today from the Office of the Secretary of 
Defense, the Joint Staff, and the Government Accountability 
Office [GAO], which has assisted the Congress with a study that 
reports on building language skills and cultural awareness in 
the military. And seated directly behind them we also have the 
senior language authorities from each of the services, whose 
job it is to organize, train, and equip this transformed force.
    Now, I will formally introduce all seven of you, but I 
first wanted to turn to Mr. Wittman for any opening comments he 
would like to make.

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
  RANKING MEMBER, SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

    Mr. Wittman. Well, thank you, Mr. Chairman, and thank you 
so much for your leadership on this. I think this is a critical 
issue and it is good that we continue to reexamine this to make 
sure we know where we are from a progress standpoint.
    Witnesses, thank you so much for taking time out to join us 
today. We are looking forward to your testimony.
    Today, as we begin to return to a topic that this 
subcommittee previously addressed, and that is building 
language and cultural competencies in our military forces, I 
think it is extraordinarily important that we take that time to 
do this reevaluation and figure out where we are today.
    By the way, Mr. Chairman, I do think that our persistence 
and ability to periodically review previously examined issues 
is one of the strengths of this subcommittee, and I appreciate 
your leadership there. You have kept us on focus there, and I 
think that is extraordinarily important.
    You know, it is rare that lasting progress will be made 
with a single report. We all know that repeated examination, 
however, does begin to bear fruit over time, and that, I 
believe, is the case here.
    The need for more language and cultural training for our 
general purpose forces has only gained importance since our 
November 2008 report. Not only have these competencies now 
received more emphasis in our campaign in Afghanistan, but 
increasing numbers of combatant commanders have stressed the 
need for these skills in the areas of operation.
    Indeed, the military services have all taken measures to 
increase these competencies in their forces with varying types 
of programs. As always, I am reluctant to dictate to the 
services how they should approach this training. Even so, 
though, since the services are all responding to the same 
combatant commander requirements the wide divergence of 
programs is still puzzling to us.
    Regardless, I am very gratified to see the serious efforts 
and formal programs that are underway across the board, even 
without much formal OSD [Office of the Secretary of Defense] 
guidance in place yet. It is apparent that you all are taking 
this issue very seriously and understand the need for our 
troops to more effectively interact with the local populace, 
and I thank you for that.
    I look forward to hearing about these ongoing programs and 
learning more about the formal OSD direction that may be 
forthcoming to provide an overarching framework for how we 
address this in a comprehensive format. Additionally, I am 
interested in how these programs are being received by the 
leadership and rank and file within each of the military 
services. Specifically, are language and cultural skills seen 
as career-enhancing?
    I look forward to your testimony and thank you again for 
your efforts.
    And with that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 25.]
    Dr. Snyder. Thank you, Mr. Wittman, and thank you for your 
service on this topic here.
    We are joined today by three testifying witnesses: Mrs. 
Nancy Weaver, the Director of the Defense Language Office, 
Office of the Under Secretary of Defense for Personnel and 
Readiness; Brigadier General Walter Golden, United States Army, 
Director of J-1 Manpower and Personnel, Office of the Chairman, 
Joint Chiefs of Staff; and Ms. Sharon Pickup, Director, Office 
of Defense Capabilities and Management of the Government 
Accountability Office.
    Also, sitting behind you three are the senior--the service 
senior language authorities. For the Navy it is Rear Admiral 
Dan Holloway, Director of the Military Personnel Plans and 
Policy division; for the Army it is Brigadier General Richard 
Longo, Director of Training, Office of the Deputy Chief of 
Staff; for the Air Force it is Mr. Don Get, the Senior Language 
Authority for the Office of the Deputy Chief of Staff; and for 
the Marine Corps, Colonel Dimitri Henry, incoming commanding 
officer to the Marine Corps Intelligence Command.
    And we actually thought about having all seven of you 
sitting at the table but figured we would all get bogged down. 
And so we will have you there available, and we will do it two 
ways of--we may call on you or folks at the table might say 
they want to refer to you. Or if you think there is just 
something we need to know please feel free to raise your hand 
or tap somebody in front of you on the shoulder and we will be 
glad to have you pull up to the microphone for folks.
    But we appreciate all of you being here today. The opening 
statements will be made part of the record.
    And, Mrs. Weaver, we will start with you, and then General 
Golden and Ms. Pickup. The lights will go off in 5 minutes--you 
feel free to surge on through if you have got more than 5 
minutes of material, but if you can stay approximately in that 
framework then we can get to our questions.
    Mrs. Weaver.
    Is your microphone on? You may want to pull a little bit 
closer to----
    Ms. Weaver. Okay.
    Dr. Snyder. For whatever reason somebody is trained to put 
these things up in the air like swans. [Laughter.]

   STATEMENT OF NANCY E. WEAVER, DIRECTOR, DEFENSE LANGUAGE 
OFFICE, OFFICE OF THE UNDER SECRETARY OF DEFENSE (PERSONNEL AND 
                           READINESS)

    Ms. Weaver. Chairman Snyder, Ranking Member Wittman, and 
members of the subcommittee, thank you for the opportunity to 
speak with you today on this very important topic. The 
Department is building a force with language skills, regional 
expertise, and cultural capabilities needed to succeed in 
today's missions. The ability to understand and interact 
successfully with local populations, allies, and partners are 
key enabling factors for mission success.
    The 2005 Defense Language Transformation Roadmap marked the 
Department's initial efforts to prepare the force to meet the 
challenges of the new operational environment. Through specific 
actions we have improved oversight and management of the 
defense language program, adapted and created policies and 
programs to support the Roadmap goals, and enhanced training.
    We are now moving beyond the Roadmap by continuing to 
refine processes for generating and prioritizing language and 
regional requirements, providing strategic direction, and 
adapting existing programs and policies to ensure we have the 
right mix of language and regional skills. For example, the 
Department is in the final stages of completing a capabilities-
based assessment which will provide improved processes to help 
determine and prioritize requirements. This pivotal effort was 
led by the Joint Staff, and Brigadier General Golden will 
provide more information in his comments.
    The Defense Language Strategy Plan is in the final stages 
of coordination. This plan will set the strategic direction in 
priorities for building and maintaining language skills, 
regional expertise, and cultural capabilities for the next 6 
years.
    Where once the training mission of the Defense Language 
Institute Foreign Language Center was mostly resident basic 
courses for the professional linguist, the request for 
nonresident training for general purpose forces has experienced 
tremendous growth. The center has responded with more than 
160,000 instructional hours through mobile training teams, 
video teletraining, virtual classroom training, and language 
training detachments. Additionally, the number of language 
training detachments is anticipated to grow from 23 to over 40 
in the next several years in order to provide more training 
opportunities for all personnel.
    The demand for a higher degree of language and regional 
expertise that requires years--not weeks--of study is on the 
rise. Therefore, we are continuing to invest in programs to 
influence future recruits and employees, starting with our own 
school system.
    The Department of Defense Education Activity, or DODEA, 
provides language-learning opportunities beginning in 
elementary school through partial immersion programs in host 
nation classes. In secondary schools distance learning and 
classroom instruction help students meet the graduation 
requirement for at least 2 years of study in a single foreign 
language. During the past academic year about 70 percent of all 
students in grades 7 through 12 were enrolled in foreign 
language classes.
    Another initiative is the State Roadmap Project, which 
represents an important federal-state partnership to explore 
how language education issues might be addressed in the state 
and local levels. Ohio, Oregon, and Texas currently have 
roadmaps. We are now collaborating with Utah and California to 
begin a roadmap process.
    While we have made progress there is still more to do. We 
appreciate the recommendations provided in the subcommittee's 
November 2008 report and the Government Accountability Office 
report issued in June 2009. These recommendations have been 
incorporated as part of our ongoing effort to develop mission-
ready all volunteer force to meet our national security 
objectives.
    Thank you very much for your continued support.
    [The prepared statement of Ms. Weaver can be found in the 
Appendix on page 27.]
    Dr. Snyder. Thank you, Mrs. Weaver.
    General Golden.

   STATEMENT OF BRIG. GEN. WALTER GOLDEN, USA, DIRECTOR, J-1 
MANPOWER AND PERSONNEL, OFFICE OF THE CHAIRMAN, JOINT CHIEFS OF 
                             STAFF

    General Golden. Mr. Chairman, Ranking Member Wittman, 
distinguished members of the committee, it is my privilege to 
report on the transformational progress the Joint Staff has 
made in response to both this committee's report on building 
language skills and cultural competencies in the military, the 
GAO's report on military training, and the need for 
requirements data to guide development of language skills and 
regional proficiency. This has been a complex task.
    Our challenge has been to break away from today's paradigm, 
where coded billets drive the need for recruiting and training, 
to one in which the geographic combatant command's capability 
requirements also drive force development. The Joint Staff has 
had oversight over this effort while the Army volunteered to 
lead the language assessment and the Navy volunteered to lead 
the regional expertise and culture assessment.
    Together we have, for the first time, developed a 
standardized, documented methodology for the geographic 
combatant commands to use to identify language, regional 
expertise, and culture capabilities requirements. This 
methodology will lay the foundation for the services to develop 
their sourcing solutions not only in the near term but also in 
the longer term.
    The value of the methodology is that once implemented the 
results will be based on sound analysis that is traceable to 
national strategy, prioritized by each geographic combatant 
command, integrated, validated, and adjudicated by the Joint 
Staff, and sent by senior Joint Staff leadership to the 
services for response. It provides the services a strong 
foundation that will influence the hard decisions regarding 
additional training because all of the services operate under 
the constraints of limited time to train, finite dollars, and 
troop ceilings. It preserves the Title 10 responsibilities of 
the services while capitalizing on combatant commands' 
knowledge of their area of responsibility--[microphone 
feedback]
    Dr. Snyder. General, I am sorry. Supposedly we have 
somebody coming to figure out what we need to do differently.
    General Golden. I will continue. [microphone feedback]
    It preserves the Title 10 responsibilities of the 
services--would you like me to continue or just wait for a 
second?
    It preserves the Title 10 responsibilities of the services 
while capitalizing on combatant commands' knowledge of their 
area of responsibility and tasks to be performed. This will be 
an iterative, cyclical process.
    The Joint Staff anticipates implementing the methodology 
this fall with the results of the first iteration being sent to 
the services in the spring of 2011. Results will not be 
immediate. We anticipate that the results of this first 
iteration will assist the services as they determine their 
foreign language and regional expertise requirements, measure 
their capability, and determine sources solutions.
    With maturity we expect greater agility in identifying, 
prioritizing, and responding to language and regional expertise 
requirements. I look forward to any questions you may have 
concerning this transformational endeavor.
    Dr. Snyder. Thank you, General Golden.
    Now we are going to see how GAO handles our sound system.
    Ms. Pickup.

  STATEMENT OF SHARON L. PICKUP, DIRECTOR, OFFICE OF DEFENSE 
  CAPABILITIES AND MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

     Ms. Pickup. Mr. Chairman, Mr. Wittman, and members of the 
subcommittee, thank you for inviting me today to discuss GAO's 
work on DOD's efforts to improve language skills and regional 
expertise. Without question, the changing security environment 
and insights from ongoing operations have led the Department to 
proactively move to develop a workforce that is more language-
capable and has a better understanding of the cultures and 
regions around the world.
    To that end, DOD has set some ambitious goals, among them 
to create what is called foundational expertise, in its general 
purpose forces and civilian ranks. This is no small 
undertaking. It encompasses all of DOD and requires the 
military services to adjust training as they continue to 
support the high pace of deployments and balance competing 
demands for resources.
    Clearly, Congress and this subcommittee in particular has 
kept the spotlight on the importance of building language and 
cultural competencies in the military. Concurrently with the 
work that led to your November 2008 report, GAO has also 
evaluated DOD's efforts.
    In our most recent report of June 2009 we examined whether 
DOD had a viable strategic plan and whether it had the 
information it needed to assess capability gaps and related 
risks. Let me briefly touch on what we learned and recommended, 
and DOD's progress.
    Comprehensive strategic plans that have clear goals, 
objectives, and metrics, and are linked to resources can help 
guide large-scale transformations. As you know, DOD published a 
Defense Language Transformation Roadmap in 2005 which laid out 
broad goals, objectives, and specific tasks, and it also set up 
a governance structure to oversee the implementation of the 
roadmap. As well, the services have developed strategies to 
guide their training efforts.
    While the roadmap was a positive step it had some 
limitations. Certain goals and objectives were broad and not 
measurable, and it didn't identify priorities or resource 
needs. Without a robust strategic plan we concluded that DOD 
did not have a sound basis to guide and synchronize efforts, 
and ultimately to ensure it was investing resources in the 
highest priority activities, and it still needed metrics to 
measure progress.
    To be fair, DOD did not label the roadmap as a strategic 
plan and, at the time of our work, recognized that it needed 
one. We understand a draft is now being reviewed, and once 
approved DOD expects to have a follow-on implementation plan 
with metrics. And, you know, from our point of view it will be 
important for DOD to set a specific milestone to complete that 
action quickly so it can begin measuring its progress.
    Equally important is a means to assess capability gaps and 
related risks. As of June 2009 DOD had inventoried the language 
skills of military personnel and since then has collected 
similar data on civilians.
    For regional proficiency skills, DOD has collected data on 
specific occupations but not yet on all military members or 
civilians. It lacked a common definition of regional 
proficiency and a way to measure these skills, so we 
recommended that DOD develop these elements. DOD agreed, and 
earlier this month DOD told us it has commissioned a study and 
set up an internal working group to address these issues, which 
it expects to produce results by sometime later next year.
    As for requirements, as of last June DOD did not have a 
validated methodology for determining its needs. Different 
methods were used and estimates varied widely.
    For example, in February 2008 the U.S. Pacific Command 
estimated its needs to be more than all of the other combatant 
commands combined. And DOD agreed it needed to do more work in 
this area and now, as General Golden stated, has addressed 
methodology under review.
    Without valid requirements, neither DOD nor the services 
can be sure that ongoing or planned training efforts will 
produce the capabilities most needed for current and future 
missions. This concludes my remarks, and I will be glad to 
answer any questions.
    [The prepared statement of Ms. Pickup can be found in the 
Appendix on page 41.]
    Dr. Snyder. Thank you all.
    We will put ourselves on the 5-minute clock here and go 
back and forth with our questions.
    I wanted to start--and this may be an unfair question, but 
you all can tell me if it is unfair--Secretary Gates, on May 
24th of this year, put out a memorandum which he calls--the 
subject line, ``Implementing Counterinsurgency Training 
Guidance to Support Execution of the President's Afghanistan-
Pakistan Strategy,'' and the third page just has one sentence 
on it which says, ``I expect all Department Components to 
identify opportunities to reinvest and reward critical 
expertise and modify training and personnel processes to ensure 
success in the region. I look forward to your full support.'' 
And there are several references in that memorandum to language 
skills and cultural competencies.
    Mrs. Weaver, is it fair for me to ask you, how did you all 
respond to that memo from Secretary Gates?
    Ms. Weaver. Thank you, sir. We have very excited about the 
memo from Secretary Gates, and personnel and readiness is in 
the process of building a letter--a memo--to go out to the 
services that provides a little bit more guidance on how we 
expect this to be implemented.
    The Army has already moved forward to develop a training 
program for all individuals going to Afghanistan with the 
training standard that was outlined in General McChrystal's 
memo on counterinsurgency--and I would ask the Brigadier 
General Longo provide more details--that actually implements 
that--a standard that every troop will have language and 
cultural capability and that at least one per platoon will have 
a higher level of language so that it will aid the organization 
in fulfilling its mission.
    Dr. Snyder. So General McChrystal's memorandum came out 
several months before Secretary Gates'--Secretary Gates' 
memorandum cause you all to change anything, what you had been 
planning to do otherwise?
    Ms. Weaver. It expedited.
    Dr. Snyder. Expedited?
    Ms. Weaver. Yes, sir.
    Dr. Snyder. When you have looked at this issue of--that we 
are talking about today--and I think GAO is discussing and very 
capably, the ability to set up a system that will provide long-
term help and be able to be evaluated--how have you all looked 
at this with regard to the immediacy of two wars in which we 
clearly need--every day--need an abundance of capable folks 
with both language and cultural competencies, versus the long-
term needs of wanted to be prepared for things all around the 
world? How has the immediacy of these two wars going on 
affected what you do?
    Ms. Weaver. Of course implementing the President's strategy 
in Afghanistan is our highest priority. We have increased the 
number and level of training opportunities for deploying troops 
in specific languages of the region, and we have also put 
resources to ensure that individuals have the level of training 
and training materials that they need both prior to deployment 
and during deployment.
    Preparing for future, we have got the strategic language 
list that identifies languages that would be of strategic 
importance, and we have implemented systems in the training 
pipeline that would allow us to surge quickly if we needed 
those languages.
    Dr. Snyder. You have enabled me to segue to my next 
question when you used the word ``surge.'' Describe for me what 
occurred and how--what kind of a grade you all would give 
yourselves after the Haiti earthquake.
    Ms. Weaver. Well, as far as language, sir, we used the 
language readiness index--or tool--to identify the languages 
that we had, and we could drill down to tell where--by name--
where the individual was, what language they had, where they 
were located, and if they were available. The services used 
this in order to ensure that we had language-speakers during 
the first and second waves to respond to Haiti. Knowing that we 
had French Creole-speakers helped immeasurably communicate what 
we were trying to do in the local area.
    Dr. Snyder. Was that a tool that you didn't have until 
relatively recently?
    Ms. Weaver. We have had it for about 2 years, sir. It 
became totally populated with our capability last year. It has 
got active duty, Guard, Reserve, civilian, and we are in the 
process of ensuring that we can load our contractors so that we 
will have a full spectrum of capability at our fingertips.
    Dr. Snyder. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Ms. Pickup, in your testimony you talked about there being 
the formation of a working group to try to determine where 
requirements need to go or where the development of 
requirements need to go and that there is a need to do more. 
Can you give us a little more about where the Department is in 
the process of developing a consistent methodology and for 
aggregating those requirements?
    You know, I know that there is inconsistency across the 
board about what the needs are, how do you develop a 
methodology to number one, assess the needs, how do you develop 
a methodology to make sure the need is being met, all those 
different elements of taking it essentially from start to 
finish about developing that capability across all of our 
service branches.
    Can you maybe elaborate a little bit more about that? I was 
interested in your comment about how you see there still being 
a continuing need to really create, I think, more depth to that 
effort?
    Ms. Pickup. When we first looked at where DOD stood in 
terms of requirements methodology it was clear to us that they 
had laid out a process, and it produces results back in the 
2006 to 2008 timeframe. But I think there was a lot of 
discretion given to the combatant commands, for example, in 
terms of how they came up with requirements.
    So what the outcome was that everybody looked at it a 
little differently, which is why you had such a wide variance 
in the estimates and you had, for example, the Pacific Command 
given its really detailed analysis of their detailed 
operational plans, considering both general purpose and 
professional linguists, levels of proficiency, those kinds of 
things, whereas the other combatant commands might have taken 
an approach.
    So while there was a process, what we thought was lacking 
was kind of a validated standard methodology that everyone 
could use.
    Now, having said that, this is no easy task, and as I 
understand from the information that we have gotten since then 
that the Joint Staff and OSD have worked to try to come up with 
such a methodology. We haven't had a chance to review it, and I 
think, you know, one of the positive features we have heard is 
that rather than trying to get into the individual specifics of 
numbers of units and individuals, it is probably going to play 
to the combatant command's strength, which is to identify 
broader capabilities.
    The challenge will be to translate those capabilities into 
specific requirements. And the only other thing that I would 
say is given the high op tempo [operational tempo] and also the 
manner in which we are deploying folks and the resource 
environment we find, I think it is going to be a challenge for 
the Department to kind of look at this, either in phases or 
potentially incrementally, within the force because I don't 
think that they are either going to be able to afford or 
sustain language proficiency in every single general purpose 
force.
    Mr. Wittman. Well, let me take it back down a level, too. 
You spoke about the combatant commands and what they assess as 
their needs. Have they gotten to the point where they have 
really been able to have some consistency in how they assess 
their needs? Do they have consistent methodology in how they do 
that and the information that they provide to you so that you 
can consolidate that effort and try to come up with, as you 
said, a workable, reasonable scenario to make sure that they 
meet their language and cultural requirement needs?
    Ms. Pickup. Well, from GAO's perspective, we evaluated that 
initial process. When the methodology comes out from the Joint 
Staff, hopefully here in the next month or so, we will take a 
look at that to see what kind of elements it contains. And as 
we, you know, continue our effort to evaluate the language, you 
know, training progress, we will also probably be visiting the 
combatant commands and definitely the ground forces to see how 
they came up with those requirements and how the services 
intend to translate them.
    Mr. Wittman. Okay. That was one of my concerns is making 
sure that from top to bottom we were looking at the 
methodologies, making sure the combatant commands had full 
scope of what their needs were and making sure that they are 
doing things in a consistent manner. So it is good to hear that 
you will be doing that.
    Mr. Chairman, I will yield back. If we are going to have a 
second round of questions I will go ahead and pick up then.
    Dr. Snyder. I could just stay here all day long just going 
back and forth, so----
    I wanted to ask, Mrs. Weaver, in your--both your written 
and oral statement you made mention of the state roadmaps, was 
it Texas, Ohio, and Oregon--and then Utah and California on the 
way. The first time that I think we as a committee heard about 
the--what sounds like good success in Ohio, Oregon, and Texas 
was a couple of years ago when we were gathering information 
for our report, and I understood that California and Utah were 
underway.
    And everyone seems to think that these are good things to 
help states come up with what they need in their state but then 
we all benefit as a country as they move these things forward. 
However, you know, two states partly underway every 2 years--at 
best that means in 23.5 years we will have finally gotten to 
all 50 states, and I would assume that Texas, Ohio, and Oregon 
will then be out-of-date, and so we can start again 24 years 
from now.
    If this is such a good idea why is it taking so damn long 
to get these things started? They are not huge expenses. Where 
is the priority on this if they are--they are important enough 
for you to put in your written statement, why aren't they 
important enough to get underway 10, 15 states a year or 
something?
    Ms. Weaver. We have considered them very important, but 
since it is a partnership we have to have the state's 
concurrence to move forward. Right now many of the states are a 
little hesitant to do that.
    We are continuing to broach other states to build 
partnerships, and Utah and California we are moving out, but we 
definitely have other states that we are working through 
flagship programs to see if they will partner with us and move 
forward in a roadmap.
    Dr. Snyder. What is the obstacle?
    Ms. Weaver. Funding.
    Dr. Snyder. Did you all make a request to the budget 
process for additional funding for this program, or what is the 
status of that?
    Ms. Weaver. Sir, the funding problem is not necessarily 
with the Department of Defense. We are committed to this 
program. The challenge is to get the states to commit resources 
to move forward with more aggressive language programs within 
their school districts.
    Dr. Snyder. But I thought the idea of this was that there 
was seed money available to help them with their plan and that 
there was going to be federal funding available. I thought that 
was the program, that you all have some support through 
staffing and personnel to help them get this thing together----
    Ms. Weaver. We do have funding to help with the roadmap, 
personnel to help them and interact, but it is actually putting 
objectives down in the roadmap that the state will move forward 
with.
    Dr. Snyder. How much federal dollars are going into 
programs at the elementary and junior high school level?
    Ms. Weaver. I don't have the specific dollar amount, sir, 
but I can get that for you.
    [The information referred to can be found in the Appendix 
on page 59.]
    Dr. Snyder. But that is an ongoing DOD program?
    Ms. Weaver. It is. We have three model programs, K-12, that 
works with our flagship programs to energize language in the 
school system.
    Dr. Snyder. Ms. Pickup, do you all have any comments on 
that program?
    Ms. Pickup. No. We have pretty much focused on kind of more 
the operational needs than the educational system.
    Dr. Snyder. I mean, I don't fault what you are doing. It 
just seems like something that you shouldn't all be doing or 
shouldn't have to be doing. And when you talk about measuring 
results I am not sure how we measure our best bang for DOD buck 
when we are going to have to look 20 and--I don't know, 15, 20, 
25 years from now to see if a 4-year-old kindergarten student, 
how his Dari or Urdu is doing.
    Mrs. Weaver, what role does the National Language Service 
Corps play in what you all are doing?
    Ms. Weaver. The National Language Service Corps is part of 
our surge operation. It is--consists of about 1,000 civilians 
who volunteer to be called in a national emergency and they 
speak the higher level proficiency in a number of languages. 
These individuals have actually been deployed with the oil 
spill in the Gulf Coast and we have had test programs with the 
CDC and with PACOM.
    Dr. Snyder. My time is about up.
    General Golden, is there anything you want to comment on 
that we have--I have asked about so far, or Mr. Wittman has 
asked about?
    General Golden. Sir, I would just like to expand for a 
minute on a couple of the questions, first in terms of kind of 
the short- and long-term approach and response to Secretary 
Gates' memorandum, and second about the capabilities-based 
assessment.
    First, in terms of a short-term approach I would like to 
point out the initiative that was really originated by General 
McChrystal's request, the AfPak Hands program, that I think 
provides, certainly in the short term, a solution to provide 
folks that are--have a fairly good understanding of both the 
language and the culture for Afghanistan and Pakistan, and then 
a methodology that allows them to receive a continuum of 
training over a period of four or five years with repeated 
tours in theater to kind of gain some of the capabilities that 
we are seeking.
    And then also in terms of that, DLI--General Longo can 
address in greater detail, but the Defense Language Institute 
and the Army's efforts to really expand their capacity beyond 
the brick and mortar of the school by providing mobile training 
detachments as well as an online capability and automated tools 
I think has allowed us to reach a much greater audience, at 
least for some of the fundamental aspects of language.
    And then second, in terms of the capabilities-based 
assessments, some of the questions asked of GAO by Ranking 
Member Wittman, I think if we had the opportunity to explain to 
you in detail our approach to the capabilities-based assessment 
I believe it addresses each of the key areas that you spoke 
about, because what we have advocated is a requirements-based 
process for each COCOM [Combatant Command] that is 
standardized, and we actually send a team out to the COCOM and 
ensure that the process is followed for each of the COCOMs.
    The proof of principle that we executed for this program 
was done at PACOM [United States Pacific Command], which has 
been mentioned several times in terms of their analysis, as 
well as SOCOM [United States Special Operations Command], so 
two different COCOMs that we evaluated this model against. Kind 
of the foundation for this assessment is based on their steady 
state security posture, some of the numbered plans and other 
areas they have, and that is what we are addressing in this 
first year, fiscal year 2010, for each of the COCOMs. I 
received a correction--SOUTHCOM [United States Southern 
Command], not SOCOM. I meant SOUTHCOM.
    And then the second piece of that is that during the second 
year we will go at some of the conventional and irregular 
warfare missions. So the initial 2 years we think we will build 
a very good foundation using those commonalities between COCOMs 
and then in the follow-on years be able just to adjust off of 
that as national security strategy--their steady state security 
posture changes as well as the evolution of some of their plans 
for irregular and conventional warfare.
    Thank you, Mr. Chairman.
    Dr. Snyder. Thank you, General. You are lucky, General; 
nobody ever gives me a note correcting me until after it comes 
out in the press.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    For Mrs. Weaver and General Golden, I wanted to ask, is the 
Defense Language Office effectively providing strategic 
direction and programmatic oversight to the services on their 
future needs and requirements in the areas of language skills, 
cultural awareness, and even regional expertise? How is that 
coming about? I just wanted to get your perspective on that.
    General Golden. I will take the first stab. I think that 
the oversight being provided right now is adequate but 
certainly not optimum.
    I would say that it is adequate because there is a--the 
oversight is really provided by a council that includes 
representatives from all the services, the Joint Staff, and 
OSD. So I think that that is an effective venue to make sure 
that everyone's voice is heard and that all bring an equal 
voice to the table.
    In terms of the way ahead, the future part, I think it will 
be even more effective as we mature this capabilities-based 
oversight because now--the intent there is once we receive the 
input from the COCOMs and they prioritize their language and 
regional expertise requirements then the Joint Staff will 
validate those and then pass those to the services so that they 
can do their own gap analysis and try to identify and match up 
resources against the capabilities that are required.
    So I think it is adequate now--certainly not ideal. But I 
believe that we have a plan, given the direction that we are 
going with first the DOD roadmap, the strategy that will be 
published, and our own capabilities-based assessment to make it 
a much better organization for providing that oversight and 
direction in the future.
    Ms. Weaver. I believe the Defense Language Office provides 
a center that ensures total collaboration so that we can view 
the Department as a whole and gather those initiatives that are 
likely to get us where we are going. I agree with General 
Golden: Until we fix the requirements process and we can apply 
it against the capability then training and where our gaps are 
is right now just a guess.
    We do have a system to try to look out and see what we need 
in the future, working with the policy people, and that is 
through capability-based reviews that we conduct every other 
year, and that gives us more of a strategic perspective. We do 
work through the council. We do think it is a collaborative 
process because there is many pieces to where the Department 
needs to go as well as the individual missions of the services.
    Mr. Wittman. Let me kind of get a little more general in 
scope now. I realize we are in a realm of resource limitations, 
but in looking at what you are being asked to do as far as 
cultural awareness--and obviously there are directed efforts in 
making sure you have that cultural awareness, as you say, 
strategically placed--but there is also a need, I think, out 
there that you have acknowledged that is in a more--in a larger 
sense among the general forces.
    Can both you and General Golden give us an idea about where 
you are going as far as cultural awareness-building within the 
entire force structure, how you are pursuing that, where you 
believe that effort is, the criticality of the effort as 
opposed to where you are right now in providing cultural 
awareness in those very strategic elements of the force 
structure?
    Ms. Weaver. We believe cross-cultural communication or the 
ability for an individual to have a understanding of multiple 
cultures is a competency that we need--or capability that we 
need--throughout the force, and we intend to move forward to 
ensure that individuals have that cultural competency. 
Cultural-specific, which is individual training prior to going 
to where they are going to be deployed, is part of pre-
deployment training.
    We have just identified the various definitions and we are 
working with the services to see what programs are already in 
place and how these programs and best practices can be 
implemented across the Department.
    General Golden. Sir, I would like to ask General Longo. I 
think the Army has a pretty good roadmap. I would like to ask 
General Longo to respond to that question.
    General Longo. Glad to do so, not sure how to work the 
microphone.
    Dr. Snyder. Pick one up, or pull your chair up there beside 
him, or whatever you want to do.
    General Longo. With regards to cultural training, the Army 
has done a tremendous amount of work to get it embedded in all 
levels of our education system. From the time a soldier enters 
basic combat training till the time an officer graduates from 
the Army War College there is cultural training that is 
appropriate to their rank and authority embedded throughout.
    And then within our collective training scenarios, either 
at home stations or at our combat training centers, we also 
have a very deployment-specific focus on cultural training. So 
we are both planting the seed corn in our educational 
institutions and then harvesting it as we get closer and closer 
to a deployment. We recognize the importance of cultural 
training.
    Mr. Wittman. Mr. Chairman, with your indulgence, if I could 
ask the Navy and Marine Corps representatives maybe to comment 
on that, too, on your efforts there with that general cultural 
awareness for the force--and the Air Force, too. I want to make 
sure we get all the service branches there. I don't want to 
leave anybody out.
    Admiral Holloway. I think one of the examples I would like 
to give that our parallel system to the Army would be, 
following up on Mr. Chairman's point about the Haiti surge--I 
think it lends a good story.
    Admiral John Harvey, a Fleet Forces commander, would say 
that upon news of that disaster in Haiti his commanders were 
told to move out, make the suffering and the people the center 
of gravity, and flow to the region. Sitting behind me today is 
Mr. Lee Johnson, who runs the program for us, and within 6 
hours Lee had the list of the Creole speakers in the United 
States Navy. In 2.5 days from a cold start our hospital ship 
was underway from Baltimore fully staffed.
    The head of the Chaplain Corps moved out, and he took the 
surgical ward from Bethesda chaplains, that deal with the 
wounded warriors--took a few of those chaplains, put them on 
the hospital ship. They also had language skills, got underway 
with a bunch of stuffed animals, and as they greeted children 
and family members that were buried for days and hadn't seen 
anyone, they were greeted with Creole language-speakers, a 
stuffed animal, and given medical care.
    Just speaking to the chaplain yesterday--happen to be over 
at Bethesda--he tells the story how the calming effect of 
hearing a language, seeing someone hand them a stuffed animal, 
and having the comforts of a hospital ship off the coast, how 
successful that was putting that center of gravity of the 
people at rest.
    We moved a carrier in place and had language-speakers on 
our helicopter squadrons to ensure that as they flew both water 
and the injured back, after dropping off water, there was 
someone--at least one--that could communicate in that language 
as a calming effect, as well. The culture--big C, little L for 
language--is the Navy's approach. It is across the continuum of 
education, and I think the Haiti response and the surge with 
both the carrier, the helicopters, our forces, our medical, our 
chaplains tells a good story as how they did impact that surge. 
Thank you.
    Colonel Henry. Gentlemen, good afternoon. As the Army 
stated earlier, the Marine Corps has taken the same similar 
approach. From boot camp all the way through deployment the 
Marine Corps has recognized the need for cultural and language 
training. In boot camp we do a cultural 101 level, where we 
just speak of culture in general so the recruits and future 
Marines get an understanding of how important it is, and as we 
progress through the ranks, like the Army the Marine Corps has 
recognized the need to have the seed corn out and to harvest it 
as we get ready to go to deployment.
    One of the final evolutions before Marines head out to 
deployment is at Twentynine Palms, where we do Mojave Viper or 
enhanced Mojave Viper, and there the Marines get to utilize 
those cultural and language skills that they have used--or 
learned--over the course of their career up to that deployment 
and actually use it in mock villages where we have 
specifically, for whatever region they are going into--of 
course now it is Afghanistan, and Pashtun and Dari; before it 
was the Iraqi dialect and that part of the world. So, like the 
Army, we recognize that and have implemented that and it has 
become part of the curriculum across the disciplines as we move 
forward. Thank you.
    Mr. Get. Chairman Snyder, Mr. Wittman, the Air Force 
follows a similar approach, and one of the advantages of the 
Defense Language Steering group is that we share these best 
practices. So, like the Army and the Marine Corps, we have 
looked at culture in our professional military education as a 
foundation for culture general, and that goes all the way from 
junior ROTC [Reserve Officers' Training Corps] to the senior 
service college. In fact, the Air Force ROTC Command has just 
published a new textbook that cultural competencies and 
cultural awareness is engrained throughout the textbook.
    We use a building block approach, as I mentioned. So at 
basic training, as the Marines do, they get an introduction to 
culture for a couple of hours. It progresses through in their 
professional military development.
    A good example would be, by the time that they get to the 
Air Command and Staff College, as a senior captain or a major, 
in addition to more cultural awareness training there is 
language training added--30 hours of language awareness, 
language development, that is provided by professional language 
instruction from the Defense Language Institute. Again, this is 
one of the ideas that came out of our collective steering 
group. It has been very effective, and it is mandatory at Air 
Command and Staff.
    It is voluntary at the Air War College. However, the 
participation is well over 50 percent. It is one of the most 
popular elective courses at the lieutenant colonel level.
    For culture-specific, very similar to what the Marines and 
the Army are doing, we have an Air Advisor Academy that focuses 
on the specific deployment area. So if we have partnership 
teams going to Iraq to help train the Iraqi air force they 
receive culture-specific training for that environment; if they 
are going to Afghanistan to partner with ISAF in training 
Afghanis, that is the focus of their training.
    So all the programs are very, very similar, and again, we 
are sharing our best practices. Thank you.
    Dr. Snyder. Thank you.
    General Golden, in your statement, which I have here 
somewhere, you make the comment toward the end of it, ``With 
maturity we expect greater agility in identifying, 
prioritizing, and responding to language and regional expertise 
requirements.'' I mean, it is the easy question to ask, I 
guess, is, you know, with maturity--we went into Afghanistan in 
October 2001 when, you know, there were a bunch of 18-year-olds 
were 10 years old, and yet we are still grappling in a very 
major way with these language issues.
    So I am not sure what propels us--I am not blaming you; it 
is all of us--what propels us, as a nation, to maturity. I 
mean, do you have any comments about that? I mean, it must be 
very frustrating for our folks who are doing multiple tours in 
Afghanistan still having to grapple with the fact that they are 
struggling to get people with language skills and we have been 
there for eight and a half, going on nine years.
    General Golden. Sir, I think that is a very fair question, 
and I would offer two points to kind of offer both my personal 
and professional perspective. The first point that I would 
bring is, again, going back to this capabilities-based 
assessment, that the maturity that I refer to for the 
capabilities-based assessment is building this foundation for 
kind of what is on the shelf, and the steady state security 
posture looks out in the future for 10 years.
    Now, obviously I am sure you and many folks in this room 
probably don't have a great degree of confidence in our nation 
or military's capability to predict with absolute certainty 
where our next conflict is going to be, but as you have said, 
we certainly know where we have been in conflict the last nine 
years, and so that should be a guiding point that I think will 
be captured by the capabilities-based assessment and expand 
upon efforts like the AfPak Hands program that will allow us 
the proficiency that we are looking for.
    I think the second challenge that we have is just in terms 
of the difficulty of some of the languages and cultures that we 
are trying to learn. Dari and Pashtun, for example, are both 
Category 4 languages for which there isn't a lot of resources 
available, at least in terms of the written word, so we have 
kind of had to build this train as we rode it.
    But without attributing, you know, too much fault to my 
choice of words for maturing, I would just like to go back to 
the point that really my allusion and my decision to use the 
word ``maturing'' was to build beyond the two COCOMS, PACOM and 
SOUTHCOM, that we have already kind of surveyed and linked to 
their steady state security posture, expanding that to all of 
the geographic commands, being able to apply those lessons to 
the intelligence community, for example, and Special 
Operations, to get a much more holistic view than perhaps the 
narrower focus that we have looked at our language and cultural 
expertise issues for the last nine years.
    Dr. Snyder. In General McChrystal's memorandum he talks 
about having one person per platoon that has, you know, 
reasonably good oral language skills compared to, you know, I 
guess the general forces. Do you the three of you--is that a 
reasonable standard to aim for, do we think, as a force?
    General Longo.
    General Longo. In November General McChrystal came out with 
that codified requirement. In December the office of the 
secretary of defense provided the services resources to get 
after that. By February we had four language training 
detachments set up at the four posts in the Army first, and 
next year it will be at other services, that had the next 
deploying brigades. In each of those posts the commanders 
committed to participating in a training regiment for that one 
soldier per platoon.
    So Fort Campbell was the first place we went to. We had 75 
soldiers show up, and in a 16-week period, which just concluded 
in the beginning of June, 98 percent of the soldiers met 
General McChrystal's established standard of zero-plus or 
better.
    And then he also asked that every soldier that goes has 
some rudimentary greeting capability, which we thought was very 
important also. What we did with that was the Defense Language 
Institute put out a 6-hour program--you can access it online 
and if you don't have access to the Internet they will send a 
CD--which gives a broad overview of cultural awareness. It also 
gives them common greetings that they say into the computer and 
get feedback back.
    So through those two programs we are very quickly able to 
meet General McChrystal's standard, and we think it is having 
an impact already as those soldiers deploy.
    Dr. Snyder. Thank you.
    Mr. Wittman.
    Mr. Wittman. General Longo and the Colonel from the Marine 
Corps, I will direct these questions to you, if I might. I have 
brought up before, through the years--and the Marine Corps 
makes it today--what role boot camp might play in this, given 
the full agenda. And I was talking with an enlisted Marine not 
long ago who thought that the idea of having some kind of early 
language skill training--language, not just cultural awareness 
but language training in boot camp--could be helpful both to 
the soldier or Marine, but then also ultimately helpful to the 
military--at least help you find some people that have both 
interest and might meet that basic requirement. Have you all 
considered or thought about actually having some kind of 
language skill at the boot camp level?
    General Longo. Sir, in the Army we have not added that, but 
I would like to tell you something we are doing with our 
officer corps, which is the incentivizing the taking of 
language courses while they are still in college. We reward 
them by pay; we give scholarships to people who major in 
foreign languages in our ROTC institutions, and at our Military 
Academy we have a requirement for two or four semesters of a 
foreign language. But as far as for the enlisted soldier in 
basic combat training, we have not implemented that.
    Dr. Snyder. Is that true for the Marine Corps also, 
Colonel?
    Colonel Henry. Sir, for the Marine Corps, on the officer 
side we have partnered with Harvard, George Washington, Tufts, 
and a couple other universities--San Diego State--to implement 
something similar. Although we do not offer money to the 
officers to get those skills we have worked with those 
universities to develop something specifically to help us in 
that regard.
    As far as boot camp, we have not looked at the language 
implementation, other than to ensure that we screen those 
Marines who may have a foreign language in their background so 
that we can capture that and record it so that we have it in a 
database.
    And we also offer, as we go through the training, and we 
offer them money so they can test--if they test and get a one-
one we will start paying them. So we try to inculcate them 
early on that language is important and something that the 
force needs, and that if they can develop that skill they can 
get the extra money to do so.
    Dr. Snyder. General McChrystal's memo refers--I think he 
uses the phrase ``strategic corporal.'' I still think there can 
be benefit from additional language skills at the enlisted 
level, but--I mean, you depend on your officer corps for a lot 
of things, but at some point I think there could be value in 
having some rudimentary language skills early on in an enlisted 
career.
    Mrs. Weaver, you--I am going to take you up on your offer 
to get us the information about how much money is going into 
the kindergarten through grade 12 language stuff, and maybe as 
a committee Mr. Wittman or I might address a letter to 
Secretary of Education Duncan about if he is aware of that and 
what he thinks about DOD dollars having to go to try to beef up 
foreign language training in our schools.
    The last question I wanted to ask to you all, and to each 
of the three of you, is, I think when you were last here--you 
were here about a year-and-a-half ago, Mrs. Weaver, I think--
and when we asked you what you thought would happen when we 
came back and revisited this topic in a year or so, and you 
thought there would be dramatic improvements. Would you say--to 
the three of you--that there has been dramatic change and 
improvement since last we spoke?
    Ms. Weaver. I think we have moved a lot farther than even 
we anticipated. Our language and culture program has permeated 
the general purpose forces. We have got institutionalized 
programs that will ensure that we are building capability and 
looking out in the future. And we have got the support of 
senior leadership now, as we did from the very beginning, who 
know the value of language and culture and are supporting our 
efforts.
    Right now, mandatory pre-deployment training for all troops 
who deploy and when they return they have follow-on training. 
We are improving the level of training, the amount of training 
materials that are available, and we are taking training to the 
individual in mobile training teams and language training 
detachments.
    So right now we think that we have the capability to move 
forward and provide the training at least to the general 
purpose forces and special forces that we need. We have also 
got continued support for the professional linguist at the 
Defense Language Institute in Monterey.
    Dr. Snyder. General Golden.
    General Golden. Sir, obviously I am one of the few that 
wasn't here during your last hearing, so I guess you could 
question my assessment, but I also believe that there has been 
dramatic progress.
    And what I would offer is, as I chose the words for my 
opening statement you may remember that a word I used was to 
report on the transformational progress the Joint Staff has 
made. And so, you know, as I looked at the word 
``transformational''--I actually thought I might be called to 
task on that word, so I went and made sure that I understood 
the definition of transformational. So I looked it up and it 
defined it as an ``orients an organization in a new direction 
and takes it to an entirely new level of effectiveness.''
    And so what I would offer to you is at least from the Joint 
Staff perspective I really do believe this capabilities-based 
assessment that is standardized among the COCOMs, is oriented 
on their steady state security posture, forces them to identify 
and prioritize their language requirements, have that validated 
by the Joint Staff, and then passed to the services in terms of 
requirements that they can match against resources, I believe 
meets that definition of a new direction and eventually take it 
to an entirely new level of effectiveness. And I think if you 
take that in context with the AfPak Hands program for 
Afghanistan specifically, then I believe we have made dramatic 
progress since the last hearing.
    Dr. Snyder. Ms. Pickup.
    Ms. Pickup. Well, I would echo that I think the Department 
has made progress, and clearly I think that the command 
emphasis is critical to this. I think the Department and the 
services are energized behind this.
    And the roadmap, as I said, was a good start; they have a 
ways to go on requirements. And as we have heard today, there 
is an array of programs and activities, particularly in the 
last several months, in response to the operational commanders' 
emphasis and needs.
    And I think as the Department and Joint Staff goes forward 
it is going to be very important for them to develop metrics to 
assess the impact of some of these programs and activities, 
particularly the more recent ones, to capitalize on the 
momentum and the command emphasis and to make any adjustments 
as they see fit while they wait for the more formal 
requirements to define the implementation process, and so that 
they can be prudent in their investment, both in the near term 
and in the long term, and the number and the nature of the 
programs they undertake.
    Dr. Snyder. Mr. Wittman, anything further?
    We appreciate you all for being here, both the three in the 
forward seats and the row behind you. Thank you for your 
service. I think this topic is very important, and I won't be 
here for the next time the committee does this, but I think 
this is a topic that is very important I am sure to the 
committee and to Chairman Skelton, and to both parties on the 
committee, and I anticipate it is an issue we will follow for a 
long, long time.
    Thank you all. We are adjourned.
    [Whereupon, at 2:41 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             June 29, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 29, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T1632.001
    
    [GRAPHIC] [TIFF OMITTED] T1632.002
    
    [GRAPHIC] [TIFF OMITTED] T1632.003
    
    [GRAPHIC] [TIFF OMITTED] T1632.004
    
    [GRAPHIC] [TIFF OMITTED] T1632.005
    
    [GRAPHIC] [TIFF OMITTED] T1632.006
    
    [GRAPHIC] [TIFF OMITTED] T1632.007
    
    [GRAPHIC] [TIFF OMITTED] T1632.008
    
    [GRAPHIC] [TIFF OMITTED] T1632.009
    
    [GRAPHIC] [TIFF OMITTED] T1632.010
    
    [GRAPHIC] [TIFF OMITTED] T1632.011
    
    [GRAPHIC] [TIFF OMITTED] T1632.012
    
    [GRAPHIC] [TIFF OMITTED] T1632.013
    
    [GRAPHIC] [TIFF OMITTED] T1632.014
    
    [GRAPHIC] [TIFF OMITTED] T1632.015
    
    [GRAPHIC] [TIFF OMITTED] T1632.016
    
    [GRAPHIC] [TIFF OMITTED] T1632.017
    
    [GRAPHIC] [TIFF OMITTED] T1632.018
    
    [GRAPHIC] [TIFF OMITTED] T1632.019
    
    [GRAPHIC] [TIFF OMITTED] T1632.020
    
    [GRAPHIC] [TIFF OMITTED] T1632.021
    
    [GRAPHIC] [TIFF OMITTED] T1632.022
    
    [GRAPHIC] [TIFF OMITTED] T1632.023
    
    [GRAPHIC] [TIFF OMITTED] T1632.024
    
    [GRAPHIC] [TIFF OMITTED] T1632.025
    
    [GRAPHIC] [TIFF OMITTED] T1632.026
    
    [GRAPHIC] [TIFF OMITTED] T1632.027
    
    [GRAPHIC] [TIFF OMITTED] T1632.028
    
    [GRAPHIC] [TIFF OMITTED] T1632.029
    
    [GRAPHIC] [TIFF OMITTED] T1632.030
    
    [GRAPHIC] [TIFF OMITTED] T1632.031
    
    [GRAPHIC] [TIFF OMITTED] T1632.032
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             June 29, 2010

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY DR. SNYDER

    Ms. Weaver. In FY 2010, Department of Defense Education Activity 
(DoDEA) offered four programs that educate students in a foreign 
language. The programs are Foreign Language in the Elementary School 
(FLES), Partial Immersion, Host Nation, and Middle and High School 
Foreign Language programs. The estimated cost for these DoDEA programs 
in FY 2010 is $79 million.

    <bullet>  Elementary School Programs include FLES Spanish: Taught 
in 63 DoDEA elementary schools in grades K-3 with 12,000 students and 
approximately 102 teachers. Students receive up to 90 minutes of 
Spanish each week by a certified Spanish teacher.

    <bullet>  Partial Immersion Programs are located in Pacific and 
Europe schools. There are 40 classrooms in 14 elementary schools with 
an estimated 800 students and approximately 40 teachers. Programs are 
taught in the languages of German, Italian, Japanese, Korean, and 
Spanish. Students are in a typical elementary classroom learning core 
subjects for half the day in the immersion language.

    <bullet>  Host Nation programs are located in Pacific and Europe 
schools and taught to all students in the elementary schools to 10,000 
students. There are 76 Host Nation (HN) cultural enrichment programs in 
11 countries: Bahrain, Belgium, England, Guam, Korea, Italy, Japan, 
Netherlands, Okinawa, Spain, and Turkey. Languages are Arabic, 
Chamorro, Dutch, British English, French, Italian, German, Japanese, 
Korean, Italian, Spanish, and Turkish. Students are in a Host Nation 
classroom for at least 45 minutes of instruction each week.

    <bullet>  Middle and high school Foreign Language (FL) courses are 
also offered in all DoDEA middle and high schools through face-to-face 
and virtual classes taught by 486 teachers. Each year, approximately 
16,000 students take a FL course for credit including students taking 
classes taken through the Virtual High School. Classes are offered from 
Level I through Levels V/VI & AP/IB in Arabic, Chinese, French, 
Italian, Korean, German, Japanese, Spanish, and Turkish.

    In addition, the Department of Defense provides approximately 
$750,000 a year, through the National Security Education Program's 
(NSEP) Language Flagship effort, to support K-12 language programs and 
is funded through Fiscal Year 2015. As an integral part of the National 
Security Language Initiative (NSLI), the Department of Defense agreed 
to fund 3 pilot models of articulated K-12 language instruction. These 
programs are funded through NSEP Flagship programs at the University of 
Oregon, Ohio State University, and Michigan State University.
    In partnership with the Department of Defense in the NSLI 
initiative, the Office of the Director of National Intelligence (ODNI) 
and the Department of State also provide support to the K-12 programs. 
ODNI commits, annually, more than $10 Million to the STARTALK program 
which is designed to train K-12 language teachers and offer summer 
immersion opportunities for high school students. STARTALK's purpose is 
to increase the number of Americans learning, speaking, and teaching 
strategically important foreign languages to the Nation. The Department 
of State also commits significant funds to middle school and high 
school students studying overseas for summers, semesters, and full 
academic years. [See page 11.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 29, 2010

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. In your oral testimony you stated that the Department 
is in the final stages of coordination of the plan that will provide 
strategic direction for language learning and cultural awareness for 
the next six years? When do you anticipate this coordination being 
complete?
    Ms. Weaver. The Department of Defense Strategic Plan for Language 
Skills, Regional Expertise, and Cultural Capabilities has been 
coordinated at the component senior leadership level. We are currently 
adjudicating all inputs received. The final version of the plan will be 
forwarded through the Under Secretary of Defense for Personnel and 
Readiness (USD (P&R)) to the Deputy Secretary of Defense for approval 
before the end of 2010.
    Dr. Snyder. While this strategic plan has been in the drafting and 
coordination phases, two of services have issued, and one is close to 
issuing, their strategic visions for foreign language and cultural 
awareness training absent current written guidance from the Department. 
What factors have contributed to what appears to have been a delay?
    Ms. Weaver. The factors that contributed to the current timeline 
are the following:

      a)  The Services current strategic plans were written with input 
from the Defense Language Transformation Roadmap (DLTR) and emerging 
Service needs.
      b)  The Department began development of a strategic plan that 
would continue transformation of language and culture, building on the 
achievements of the DLTR.
      c)  A Department-wide working group, consisting of 
representatives from the Services, Defense Agencies, Joint Staff, and 
Office of the Secretary of Defense (OSD), developed this plan, with 
periodic review and guidance from the Defense Language Steering 
Committee.

    This plan has been developed along a timeline to ensure it 
conformed to key strategic planning documents, to include the 2010 
Quadrennial Defense Review Report, and the 2010 Defense Planning and 
Programming Guidance. The Services that have not yet issued a strategic 
plan will use this plan as well as other strategic documents to update 
their specific vision for language and regional awareness goals and 
objectives.
    Dr. Snyder. What challenges does the Department face in developing 
the same framework for determining requirements and assessing current 
capabilities for cultural awareness and regional expertise that it has 
presently have for language skills?
    Ms. Weaver. The primary challenge the Department faces is that the 
assessment tools used to determine an individual's regional expertise 
and culture proficiency are not as mature. In order to address this 
challenge, the Department has recently developed a conceptual framework 
and methodology for determining the regional expertise and cultural 
capability requirements. We will test the framework and methodology 
through a Capabilities-Based Assessment (CBA). The CBA will evaluate 
the Joint Mission Essential Task List relevant to each COCOM mission, 
determine the requirements, and express the demand in terms of the 
degree of capability required to accomplish the task. These demands 
will then be prioritized and sent to the force providers (in most cases 
the Military Services), who will then recruit, train, and educate 
personnel in order to meet those demands. This will be the first time 
the Department has conducted a requirements generation and reporting 
process for regional and cultural skills.
    In order to identify existing capability within the Department, we 
are continuing to develop procedures for assessing an individual's 
regional (and associated cultural) proficiency. The assessments will 
include education and discipline of study, frequency and duration of 
assignments in the region, jobs performed while in the region, as well 
as personal travel, family background history, etc.
    Dr. Snyder. In your written testimony you stated that the initial 
state roadmap projects include three states: Ohio, Oregon, and Texas. 
How much funding has the Department provided for the development of 
state roadmaps?
    Ms. Weaver. In FY 2008, Congress appropriated $1M to the Department 
of Defense to support federal language coordination. DoD reached an 
agreement with Congress that the Department, through the National 
Security Education Program (NSEP), would apply these funds to an effort 
that would launch three pilot state roadmaps for language education. 
These roadmap efforts were launched in Ohio, Oregon, and Texas with the 
one-time $1M appropriations. Since FY08, NSEP has continued to 
coordinate and support implementation of key recommendations of the 
three roadmaps with no additional congressional support. In FY 2009 
NSEP allocated $223,000 and in FY 2010 $100,000, chiefly out of NSEP's 
Flagship budget for the development of these state roadmap projects.
    Dr. Snyder. In your written testimony you stated that the 
Department has implemented a two-year professional development pilot 
program for National Security Education Program (NSEP) fellows to 
assist fellows in competing for positions in the government related to 
their language skills and regional expertise. How many NSEP fellows 
have taken advantage of the pilot?
    Ms. Weaver. Currently, six NSEP interns are participating in this 
pilot Professional Development Program (PDP): four Foreign Affairs 
Specialists (Office of the Secretary of Defense, Virginia) and two 
Foreign Language Instructors (United States Air Force Academy, 
Colorado).
    Dr. Snyder. In your written testimony you stated that the validated 
methodologies will be based on the combatant commander ``steady state 
postures.'' The current framework was not responsive to the needs of 
the International Security Assistance Force in Afghanistan. It appears 
that neither U.S. Central Command nor the Joint Staff anticipated the 
foreign language training directed by General McChrystal's November 10, 
2009 memorandum, which came eight years into the war. How will the 
Joint Staff incorporate agility into this peacetime process?
    General Golden. We initiated the capability based assessments 
because we lacked a standardized framework to determine requirements. 
The methodology that we developed will build an unprecedented global 
baseline of requirements for language, regional expertise and culture. 
Requirements drive training, education, recruitment and retention. 
Until requirements are documented, the only drivers for education and 
training are those tied primarily to intelligence or foreign area 
officer billets and those determined by individual commanders. Agility 
will be enabled by identifying requirements in advance.
    Dr. Snyder. In your oral testimony you stated that the Joint Staff 
has oversight of two capabilities-based assessments, one by the Army 
for foreign language and one by the Navy for culture, to develop 
standardized methodologies for the combatant commands to establish 
requirements. What is the status of these two efforts? When will they 
be completed? What factors have contributed to what appears to have 
been a prolonged process? Given Secretary Gate's May 24, 2010 
memorandum on endorsing General McChrystal's counterinsurgency training 
guidance, has the Joint Staff considered advancing the timeline and 
expediting the current schedule?
    General Golden. A single methodology to determine language, 
regional expertise and culture has been developed and fully coordinated 
with the Services and Combatant Commands. Coordination at all levels 
has been crucial. This effort is unprecedented. It has been a complex 
undertaking, because it is critical that it address global 
requirements, apple to each geographic combatant command and provide a 
refined and targeted signal to the Services for force development.
    We will accelerate the timeline where possible. The first step is 
identifying requirements for Steady State Security Postures (SSSPs). 
This will be arduous and cannot be accelerated. However due to the 
criticality of this effort, we have eliminated about six months from 
the original implementation plan by beginning the identification of 
surge requirements immediately after collecting the SSSP requirements. 
Thereafter, this will be an iterative process where we will continue to 
refine requirements and respond to changing priorities.
    Dr. Snyder. When will the combatant commanders start using the 
validated methodologies?
    General Golden. Between October and December 2010, a Joint Staff 
facilitation team will visit each geographic combatant command to train 
participants in the methodology and facilitate the identification of 
requirements for the initial Steady State Security Postures. Then each 
combatant command will complete the identification of requirements for 
their remaining SSSPs. This work should be completed by Sprint 2011.
    Dr. Snyder. The House version of the 2011 National Defense 
Authorization Act directed the Government Accountability Office to 
review the services' language, cultural awareness, and regional 
expertise training. What is the status of this review? What preliminary 
issues and questions will you be looking at?
    Ms. Pickup. The committee report accompanying the proposed Fiscal 
Year 2011 National Defense Authorization Act \1\ directs the 
Comptroller General of the United States to review the services' 
language, regional expertise, and cultural awareness training plans for 
general purpose forces. Specifically, because of the continued presence 
of the Army and Marine Corps in Iraq and Afghanistan, where missions 
typically require close contact with foreign populations, the mandate 
directs GAO to focus on DOD's ground forces.
---------------------------------------------------------------------------
    \1\ H.R. Rep. No. 111-491 at 259 (2010), which accompanied H.R. 
5136.
---------------------------------------------------------------------------
    We began our work with DOD in response to the mandate on July 1, 
2010. To date, we have conducted meetings with the Office of the 
Secretary of Defense; Headquarters, Department of the Army; and 
Headquarters, United States Marine Corps. We plan to conduct additional 
meetings with these offices and we expect to visit the services' force 
providers, training commands, and lessons learned centers, as well as 
U.S. Central Command and U.S. Joint Forces Command. We also plan to 
visit selected units that are training for, or which have recently 
returned from, missions in Afghanistan and Iraq.
    In general, we will be reviewing the progress of the two services 
in implementing training programs in support of their goal to develop 
forces that are more language capable and have a better understanding 
of the cultures and regions around the world. Our specific preliminary 
objectives in conducting this review are to determine (1) how the Army 
and Marine Corps define training requirements for language proficiency, 
regional expertise, and cultural awareness; (2) the extent to which 
training requirements in these areas have been integrated into 
predeployment training and other joint exercises, and the metrics, if 
any, that have been developed to evaluate the impact of this training; 
(3) the challenges, if any, that the services face in implementing 
training requirements for language proficiency, regional expertise, and 
cultural awareness; and (4) the extent to which the services have 
incorporated lessons learned from ongoing operations regarding language 
proficiency, regional expertise, and cultural awareness into training 
programs.
    Dr. Snyder. Service academy majors in fields related to science, 
technology, engineering, and mathematics (STEM) typically take fewer 
foreign language courses than their humanities and social science 
counterparts. The Naval Academy, unlike the Military Academy and Air 
Force Academy, does not require STEM majors to take any foreign 
language. This seems incongruous with the growing importance of 
language skills in maritime operations. Given the Academy's goal of 
graduating 65% STEM majors, what is the Navy's rationale for the 
majority of its Academy graduates entering the service with no foreign 
language proficiency?
    Admiral Holloway. Navy has taken a hard and critical look at the 
courses required of Midshipmen, and has determined that U. S. Naval 
Academy's academic program best serves the skills needed by officers to 
support the nation's maritime missions. The current academic balance is 
supported completely by Navy's Foreign Language Office. It is correct 
that the Academy's goal is to graduate 65% STEM (Science, Technology, 
Engineering, Math) majors, and those majors have no language 
requirement. However, the Academy does have vigorous and relevant 
language and regional studies programs. The language studies department 
provides not only foreign language training, but a foreign language 
education by offering language major and minor programs in Arabic and 
Mandarin Chinese, and language minors in Russian, Japanese, French, 
German, and Spanish.
    Enrollments in languages and cultures at the Naval Academy have 
increased. For the current Fall Semester, 1,552 midshipmen, one third 
of the Brigade, are enrolled in language courses in the Department of 
Languages and Cultures. The department was renamed to reflect more 
accurately its double emphasis: enhanced language capabilities and 
intercultural competence/cross-cultural dynamism. The Class of 2010 
produced 155 minors (seven were dual minors), four Chinese majors, and 
nine Arabic majors. A major requires 14 3-credit hour courses, ten of 
which have to be taught in the target language, e.g., Arabic or 
Chinese.
    Foreign Language education focuses simultaneously on increased 
language capabilities and cultural competencies through the study of 
courses such as Window on Arabic Culture, Arabic Discourse in Modern 
Society, Modern Arabic Literature, Chinese Culture through Films, 
Twentieth-Century Chinese Literature, and Intercultural Communication. 
The Academy's Political Science Department has expanded its academic 
offerings to include courses such as Middle East International 
Politics, Asia International Politics, Islam and Politics in Southeast 
Asia, and National Security Policy of Japan.
    Navy has implemented language study in other commissioning 
programs. To encourage critical foreign language and regional studies, 
Navy established the Language, Regional Expertise, and Culture (LREC) 
Academic Major program for the Senior Naval Reserve Officers Training 
Corps. Its purpose is to encourage select NROTC Midshipmen to pursue 
language and regional studies majors. The set goal for the program is 
to produce 20-30 Midshipmen graduates annually. Those selected to 
participate will major and minor in LREC course disciplines deemed 
critical by the Office of the Chief of Naval Operations. In its first 
year of implementation, 18 NROTC Midshipmen were enrolled. Areas on 
which students may focus include Arabic, Chinese, French, Hausa, 
Japanese, Portuguese, Russian, and Spanish as well as related regional 
studies, political science, and international relations.
    While Navy does not direct that its STEM majors participate in 
foreign language courses, given the rigor of those curricula, we remain 
confident our commissioning accession requirements, both via the Naval 
Academy and NROTC, are appropriately prioritized to provide the right 
balance of skills needed in its officer corps to successfully perform 
the nation's maritime missions.
    Dr. Snyder. Is your service paying foreign language proficiency pay 
to personnel outside the military linguist or foreign area officer 
career paths? If so, to whom and at what levels? What is your service's 
policy for paying its special operations forces?
    Admiral Holloway. Navy pays the Foreign Language Proficiency Bonus 
(FLPB) to a substantial number of personnel beyond career linguist 
categories. Full FLPB is paid to all members who test at the 
Interagency Language Roundtable (ILR) L2/R2 proficiency levels or 
higher for all languages on the Department of Defense Strategic 
Language List (SLL), except those that have been declared Dominant in 
the Force (DIF), e. g., Spanish, French. Eligible members receive FLPB 
regardless of designator, rating, or billet assignment.
    Navy pays what it terms ``Expeditionary FLPB'' to Sailors assigned 
to Navy special operations and expeditionary forces at the L1/R1 
proficiency levels. Those forces include all designators and ratings 
assigned to the Naval Special Warfare Command (NSWC), Naval 
Expeditionary Combat Command (NECC), Fleet Marine Force (FMF), the 
Health Services Augmentation Program (HASP), and to the Afghanistan-
Pakistan (AFPAK) Hands program.
    Navy also pays FLPB at the L1/R1 levels for contingency situations 
including emergent, unplanned, or ad hoc operations for which an 
individual's foreign language skills are required to facilitate or 
enable the command's mission.
    Dr. Snyder. Is foreign language proficiency a consideration for 
promotion for officers outside of the linguist or foreign area officer 
career paths? Does your service have any flag officer positions, apart 
for those normally filled by foreign area officers, for which language 
proficiency is a consideration for selection and assignment?
    Admiral Holloway. Foreign language proficiency has been called out 
in the precepts for all officer promotion boards and enlisted 
advancement selection boards to ensure these highly sought after skills 
receive appropriate recognition. Navy currently does not have any 
Unrestricted Line Flag Officer positions requiring language 
proficiencies, however, we recently initiated a program that offers 
language training and culture information products to all Flag Officers 
enroute overseas assignments. Opportunities under this program include 
the offer of tutors, language learning software, and language survival 
kits. The program has been endorsed at the highest levels of Navy 
leadership and to date has been received with overwhelming and positive 
response. Navy also recently designated its first Foreign Area Officer 
(FAO) Flag Officer--skilled in Russian at ILR levels L1+/R2.
    Dr. Snyder. Is your service paying foreign language proficiency pay 
to personnel outside the military linguist or foreign area officer 
career paths? If so, to whom and at what levels? What is your service's 
policy for paying its special operations forces?
    General Longo. Yes, the Army pays a foreign language proficiency 
bonus (FLPB) to Soldiers outside the Linguist or Foreign Area Officer 
(FAO) career paths. Governed by Department of Defense Instruction 
(DODI) 7280.03, the DoD Financial Management Regulation 7000.14-R, 
Volume 7A, Chapter 19, and Army Regulation 11-6 (Army Foreign Language 
Program) any Soldier, regardless of military occupational specialty 
(MOS), assignment, or rank can be certified to receive FLPB by 
achieving a score of 2 or higher in reading and a 2 or higher in 
writing on the Defense Language Proficiency Test (DLPT). Soldiers may 
receive entitlements for proficiency in multiple languages; however the 
annual FLPB entitlement may not exceed $12,000 or $1,000 monthly. Each 
Soldier must test annually in each language for which they are 
receiving FLPB to continue receiving payment.
    The FLPB is also paid to Soldiers who demonstrate a Level 2 or 
higher proficiency of two of the three modalities (reading, listening 
and speaking) in a dominant language (Spanish, Portuguese, French, 
Russian, German, and Italian) or maintain that proficiency level in any 
of the languages on the Department of Defense Strategic Language list, 
which is annually updated by the Office of the Secretary of Defense. In 
order to receive a FLPB in these two categories, the following criteria 
must be met:

    a.  Soldier must possess a ``language dependent MOS and one of 
these languages must be their Control Language'', or
    b.  Soldier must be attending military education as a student and 
the course is taught ``exclusively'' in this language or Soldier is an 
Instructor teaching this language ``exclusively,'' or
    c.  Soldier must be assigned to a position on the unit military 
table of equipment or TDA that the billet is ``specifically'' coded for 
this language.

    Army Special Forces (SF) receive foreign language training as part 
of the SF curriculum. In addition to basic language training, Soldiers 
in the SF community are each assigned a control language for which they 
receive FLPB. Some SF Soldiers are also in ``language coded billets'' 
for which they are paid FLPB. The same FLPB regulations and FLPB 
payment requirements apply to these Soldiers as it does for the rest of 
the general purpose force.
    Dr. Snyder. Is foreign language proficiency a consideration for 
promotion for officers outside of the linguist or foreign area officer 
career paths? Does your service have any flag officer positions, apart 
for those normally filled by foreign area officers, for which language 
proficiency is a consideration for selection and assignment?
    General Longo. Foreign language proficiency is not a consideration 
for promotion for officers (01-06) outside of the linguist or foreign 
area officer career paths. Additionally, there are no general officer 
billets that have a language requirement.
    Dr. Snyder. You stated that the Air Force looks at culture in our 
professional military education as a foundation for culture general, 
and that it goes all the way from junior ROTC to the Senior Service 
College. Can you describe the general culture material in the junior 
ROTC curricula? How does it compare to what recruits receive in basic 
training?
    Mr. Get. The Holm Center at Maxwell AFB provides a text and a 
curriculum to Junior ROTC programs that emphasizes regional detail/
regional studies. The JROTC program is designed to stimulate junior 
cadet awareness of (and interest in) the broader world, and that later 
instruction (say in AFROTC or the Academy) will build on that interest 
by providing generalizable understandings and skills to deal with the 
world as a whole (in other words, a culture-general approach).
    This is different from the approach taken in basic training (BMTS). 
Currently, the BMTS curriculum includes four hours of Human Relations 
training, of which approximately an hour and a half is devoted to 
culture-general content. This is supplemented by a number of practical 
exercises in the Basic Expeditionary Airman Skills Training (BEAST) 
capstone experience, which include opportunities to apply culture 
learning. The Air Force Culture and Language Center (AFCLC) staff 
communicates regularly with the BMTS staff to identify other places to 
weave in culture-general content.
    Dr. Snyder. Is your service paying foreign language proficiency pay 
to personnel outside the military linguist or foreign area officer 
career paths? If so, to whom and at what levels? What is your service's 
policy for paying its special operations forces?
    Mr. Get. The Air Force pays Foreign Language Proficiency Bonus 
(FLPB) outside the military linguist or foreign area officer (or Air 
Force Regional Affairs Strategist) career paths IAW AFI36-2605_AFGM2, 
dated 4 May 2010. With the following exceptions, all personnel 
maintaining a 2/2 Defense Language Proficiency Test (DLPT) score are 
paid FLPB:

    For dominant in the force languages, required proficiency levels 
are noted below.
          Spanish--4/4 and Tagalog--3/3
          German, Italian, French, Russian and Portuguese--3/3

    IAW AFI36-2605_AFGM2, dated 4 May 2010, Airmen serving in language-
coded billets while assigned to a US Special Operations Command 
(USSOCOM) or Air Force Special Operations Command (AFSOC) organization 
will receive FLPB if they maintain a current proficiency level of at 
least a 1/1 in any two modalities. FLPB will apply to the language 
coded against the billet. Sub 2/2 FLPB will be paid for a maximum of 2 
years for Category I-III languages and for a maximum of 3 years for 
Category IV languages as identified on the DoD Language Category List. 
Airmen must demonstrate improvement in any modality annually in order 
to continue to receive Sub 2/2 FLPB. Any Career Field Authority, in 
coordination with the Air Force Senior Language Authority (SLA), may 
identify other language-coded billets eligible for FLPB at the 1/1 
level or higher. The Air Force has also extended the special operations 
exception described above to AFPAKHANDS personnel.
    Dr. Snyder. Is foreign language proficiency a consideration for 
promotion for officers outside of the linguist or foreign area officer 
career paths? Does your service have any flag officer positions, apart 
for those normally filled by foreign area officers, for which language 
proficiency is a consideration for selection and assignment?
    Mr. Get. For the first question, not at this time. This is 
something that needs to be researched, which we are doing. We are still 
working out the details on how the Language Enabled Airman Program 
(LEAP) participants will be annotated to demonstrate what they have 
accomplished. Currently, we are in the paper work process to track LEAP 
within a Language Enabled Airmen Developmental Resource (LEADR) 
database, in addition to using the SEI to annotate them in the system.
    For the second question, yes, two positions:

    1.  A position in DIA requiring Chinese Mandarin for Intelligence 
Collection
    2.  A position in EUCOM requiring Turkish for Foreign Military 
Sales & Security Assistance Program Management

    Dr. Snyder. Is your service paying foreign language proficiency pay 
to personnel outside the military linguist or foreign area officer 
career paths? If so, to whom and at what levels? What is your service's 
policy for paying its special operations forces?
    Colonel Henry. Since 2006, the Marine Corps has paid all Marines, 
regardless of occupational field, Foreign Language Proficiency Pay 
(FLPP). Although 2/2 is normally the minimum level of proficiency to 
earn FLPP, the Marine Corps also pays a Marine $100 per month in FLPP 
at the 1/1 level for certain GWOT or ``Long War'' languages that 
enhance our mission effectiveness.
    For most other languages except those designated as ``dominant in 
the force,'' we are able to pay FLPP to all Marines at the 2/2 level. 
FLPP for these ``dominant in the force'' languages is restricted to 
personnel in specific billets and specialties (FAOs, Marine Forces 
Special Operations Command (MARSOC), and Intelligence). Since 2006, 
Spanish is the only language for which the restrictions apply to 
Marines.
    Annually, the Marine Corps publishes Marine Administrative Messages 
(MARADMINs) which outline the USMC strategic language list (categories 
for FLPP payment) and additional exemptions to the FLPP policy.
    MARADMINs 042/10 & 044/10 (full MARADMINs are below) allow for 
payment of Marines assigned to MARSOC down to the ILR 1/1 level for 
languages that are critical for mission success. All language lists are 
determined and approved through a joint effort between Intelligence 
Dept, Plans, Policy & Operations, Manpower & Reserve Affairs, and the 
Marine Forces Components. (e.g., MARSOC, MARFORPAC and MARFORCOM).
    Dr. Snyder. Does your service have any flag officer positions, 
apart for those normally filled by foreign area officers, for which 
language proficiency is a consideration for selection and assignment?
    Colonel Henry. The Marine Corps does not have general officer 
positions for which language proficiency is required; however, there 
are certain billets that Manpower and Reserve Affairs (M&RA) will 
consider language proficiency for selection and assignment. A specific 
example is the Chief of Staff for SOUTHCOM. M&RA strives to assign a 
BGen with a Spanish capability to this billet.
    Dr. Snyder. What is the status of the implementation of the Marine 
Corps' regional skills program for career officers and enlisted 
personnel? When will the first cohort for each have their promotion to 
major and gunnery sergeant respectively dependent on mastery of the 
requisite language proficiency and regional expertise?
    Colonel Henry. The Marine Corps' Regional, Culture, and Language 
Familiarization (RCLF) Program represents the Corps' enduring, career 
long training and education effort to institutionalize language and 
culture capabilities in the General Purpose Force in the out years (ie: 
post-OEF) and the implementation is ongoing. The RCLF Program Concept 
Plan is in the staffing process and has received Marine Corps-wide O6 
and O7 level reviews. Once the Commandant signs the USMC Language, 
Regional, and Culture Strategy, the RCLF Program Concept Plan will be 
released for 3-Star review.
    Officers assigned to The Basic School are receiving regional 
assignments with associated culture classes, and have recently been 
provided access to the Officer Block II curriculum resident on 
MarineNet, the Marine Corps' primary distance learning mechanism. 
Enlisted Marines are receiving Block I training at the recruit depots 
and coordination with Enlisted Professional Military Education 
continues to further development of the remaining enlisted blocks. The 
Marine Corps is expected to have its initial operating capability 
across all the respective officer and enlisted blocks by the end of 
FY11. Implementation of Officer blocks I and II are complete. In Block 
I, officers receive their regional assignment while at The Basic School 
and it is formally entered and tracked via the Marine Corps Total Force 
System. For Block II, those Second and First Lieutenants who have been 
assigned a region will complete a 13 module curriculum (1 module 
focused on operational culture/culture general and 12 modules 
associated with their specific region) reside on MarineNet. This 
curriculum has been available since 18 August 2010, and more than 140 
enrollments have occurred to date.
    The intent is to ensure that there is a focused effort across the 
training and education continuum to actively develop, enhance, and 
sustain these skill sets throughout the force, from accession to 
retirement. Given the current status of the RCLF Program's development 
and implementation, it may be 8-10 years before those Second and First 
Lieutenants who have regional assignments progress through the program 
and come into zone for Major. The same is true for the enlisted ranks. 
The officer promotion process, in particular, must adhere to certain 
statutory requirements, so the Service does not have complete authority 
in dictating what is, or is not, a mandatory requirement for promotion. 
However, there is some latitude in outlining what comprises a ``best 
and fully qualified'' officer/enlisted for promotion, and the Marine 
Corps is exploring the feasibility of including successful progress in 
the RCLF Program as one of those components.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
